                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF MSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-08050040                                                                   Page 1 of 1



         This investigation was initiated pursuant to a proactive review1 of awards where no project
         reports had been submitted and funds had been drawn-down after the expiration date. A review
         of NSF databases for three of an institution's2 NSF awards3revealed that a significant amount of
         funds4 were drawn-down after the award expiration dates.

         We received and reviewed financial information from the grantee institution to determine the
         validity of the post-expiration draw-downs. The general ledgers for two of the awards indicated
         only minor charges had been made to the awards within 60 days after the expiration dates. The
         general ledger for the third award indicated a significant amount of funds5had been spent after
         the award's expiration date. However, a review of documentation for the award in eJacket
         showed that a retroactive no-cost extension had been obtained from NSF to cover the post-
         expiration charges.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
                                                                                                            I
